           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

ORGANIZATIONAL REPRESENTATIVE PAYEE
            SERVING AS AN
  INDIVIDUAL REPRESENTATIVE PAYEE
    IN PHILADELPHIA, PENNSYLVANIA

    September 2009   A-03-09-29094




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   September 23, 2009                                                         Refer To:

To:     Laurie Watkins
        Regional Commissioner
         Philadelphia

From:   Inspector General

Subject: Organizational Representative Payee Serving as an Individual Representative Payee in
        Philadelphia, Pennsylvania (A-03-09-29094)


        OBJECTIVE
        Our objectives were to determine whether the representative payee (1) had effective
        safeguards over the receipt and disbursement of payments made under the Old-Age,
        Survivors and Disability Insurance (OASDI) and Supplemental Security Income (SSI)
        programs; (2) used and accounted for benefit payments in accordance with Social
        Security Administration (SSA) policies and procedures; and (3) adequately protected
        personally identifiable information for beneficiaries in its care. In addition, we assessed
        the risk of the representative payee serving as both an organizational and individual
        payee.

        BACKGROUND

        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. Congress granted SSA the authority
        to appoint representative payees to receive and manage these beneficiaries’
        payments.1 A representative payee may be an individual or an organization. SSA
        selects representative payees for OASDI beneficiaries or SSI recipients when
        representative payments would serve the individuals’ interests. Representative payees
        are responsible for managing benefits in the best interest of the beneficiary.2 See
        Appendix B for additional representative payee responsibilities.



        1
         We use the term “beneficiary” in this report to refer to both OASDI beneficiaries and SSI recipients.
        Further, we use the term “benefits” in this report to refer to both OASDI benefits and SSI payments.
        2
            Social Security Act §§ 205(j) and 1631(a)(2); 42 U.S.C. §§ 405(j) and 1383(a)(2).
Page 2 - Laurie Watkins


During our August 2009 audit, Individual Representative Payees Serving Multiple
Beneficiaries (A-13-08-28089), we found that one of the individual representative
payees also served as an organizational representative payee for two group homes in
Philadelphia, Pennsylvania—Quality Assisted Living and Chestnut Manor I. In addition,
we learned the payee did not know the whereabouts of one of the beneficiaries in his
care. Based on this information, we initiated a separate review of this representative
payee. Our review covers the activities related to the representative payee’s
assignment as both an organizational and individual payee. During our audit period,
January 1, 2007 to September 30, 2008, the representative payee served as a payee
for 27 (active and terminated) SSA beneficiaries and received payments totaling about
$313,000 on their behalf.

         Table 1: Representative Payee’s Beneficiaries and Benefit Amount
          Type of                    Title of                                           Amount of
           Payee               Payee/Organization                Beneficiaries           Benefits
    Individual                Representative Payee                    9a                 $140,932
    Organization              Quality Assisted Living                   11               $104,954
    Organization              Chestnut Manor I                          7                 $67,074
    Total                                                               27               $312,960
   Note a: Although the representative payee was assigned as an individual payee for
   nine beneficiaries, eight lived at the Quality Assisted Living facility, and one lived at the representative
   payee’s residence.

National Research Council of the National Academies Report

In July 2007, the National Research Council of the National Academies (National
Academies) issued a report, Improving the Social Security Representative Payee
Program: Serving Beneficiaries and Minimizing Misuse. In its report, the National
Academies discussed the results of its national survey including payee performance,
prevention and detection of payee misuse, and SSA’s Representative Payment
Program policies and practices. The study was restricted to individual payees serving
fewer than 15 beneficiaries and non-fee-for-service organizational payees serving fewer
than 50 beneficiaries.

The National Academies’ study of payees found several cases in which individuals were
payees for numerous beneficiaries and affiliated with organizations that served the
beneficiaries, possibly as fee-for-service organizations. In many of these cases, it was
reported that the representative payee not only disbursed SSA benefits but also
provided services, including shelter and food. Further, it was reported when a payee is
a beneficiary’s creditor, either as a landlord or as a provider of board and care, it is
unclear whose interests are being served.
Page 3 - Laurie Watkins


The study concluded SSA’s designation of “individual payee” is too broad. Further, the
study reported the designation mixes payees who serve a single or a few beneficiaries
with payees who operate group homes for up to 14 beneficiaries. The National
Academies’ report indicated individual payees who are owners or administrators of
group homes have an inherent conflict of interest and, as a result, concluded that
payees of this type require special monitoring.

RESULTS OF REVIEW
Our review found that the representative payee did not manage benefits in the
beneficiaries’ best interests. Specifically, we found that the representative payee
(1) did not have effective safeguards over the receipt and disbursement of Social
Security benefits and was unable to show that benefits were spent for the beneficiaries’
needs; (2) failed to promptly report to SSA that a beneficiary was no longer in his care,
as required by SSA policy; and (3) received SSA benefits for beneficiaries not in his
care, which may constitute an assignment-like situation prohibited by SSA policy.
Moreover, we found that SSA had limited oversight of the representative payee serving
in more than one capacity, which hindered the Agency’s ability to adequately monitor
the representative payee’s performance and protect beneficiaries from misuse.

RECEIPT AND DISBURSEMENT OF SOCIAL SECURITY BENEFITS

We found the representative payee did not have adequate internal controls for the
receipt and disbursement of Social Security benefits. Specifically, the representative
payee did not maintain sufficient supporting documentation to account for the
expenditure of beneficiaries’ funds. In addition, some bank accounts used by the
representative payee to receive and hold beneficiaries’ Social Security benefits were not
titled properly to show that the representative payee held the accounts in a fiduciary
capacity on the beneficiaries’ behalf. Lastly, the representative payee commingled
benefit payments with his operating account.

Insufficient Supporting Documentation

The representative payee received about $313,000 in benefit payments during the
review period. However, the representative payee was unable to provide supporting
documentation to account for about $105,000 (34 percent) in expenditures for 10 of the
27 beneficiaries in his care (Table 2). The representative payee did not have evidence
of an agreement or contract that defined what the representative payee’s duties were,
the services rendered to the beneficiaries, or the beneficiaries’ obligations. For the
remaining 17 beneficiaries, the representative payee provided evidence that supported
the $207,000 (66 percent) in expenditures. The evidence included agreements
between the representative payee and the beneficiaries that defined the services
provided to beneficiaries (for example, room and board, health care services, personal
care services, and clothing) and the cost of the care provided by the representative
payee.
Page 4 - Laurie Watkins


Federal regulations require that representative payees account for the use of benefits
and indicate that payees should keep records of how benefits were used.3 Although we
were not able to confirm how these funds were expended without supporting
documentation, nothing came to our attention that led us to believe that food, clothing,
and shelter were not being provided to the beneficiaries. Furthermore, our interviews
with nine beneficiaries did not disclose any concerns that led us to believe the
beneficiaries’ needs were not being met.

                  Table 2: Beneficiaries Without Supporting Documentation
                        Type of                      Title of
                         Payee               Payee/Organization                Beneficiaries
                  Individual                Representative Payee                    6a
                  Organization              Quality Assisted Living                 2
                  Organization              Chestnut Manor I                            2
                  Total                                                                10
                 Note a: All six beneficiaries lived at the Quality Assisted Living facility.

Collective Bank Accounts Did Not Meet SSA Requirements

The representative payee did not properly title two checking accounts used to deposit
and issue personal allowances to beneficiaries.4 The two collective accounts were not
titled to show the funds belonged to SSA beneficiaries.5 Instead, both accounts were
titled with the name of the two group homes. Federal regulations generally require that
payees show the beneficiary’s ownership, and SSA policy requires that collective
accounts be properly titled to show the representative payee holds the account in a
fiduciary capacity on the beneficiaries’ behalf.6 The beneficiaries must own the account
without having access to it, and the payee cannot have a personal interest in the
account.7



3
    20 C.F.R. §§ 404.2065 and 416.665.
4
  SSA policy indicates that a minimum of $30 per month should be set aside by payees to be used for
beneficiaries’ personal needs (clothing, miscellaneous, transportation expenses, etc.) or saved on his/her
behalf for any beneficiary residing in any type of facility; hospitals, nursing homes, etc. SSA Program
Operations Manual System (POMS), GN 00602.010 B.2.
5
    A collective account is established to hold funds belonging to more than one beneficiary.
6
  Federal regulations, 20 C.F.R. §§ 404.2035 and 416.635, specifically indicate that a representative
payee has a responsibility to keep any benefits received separate from his or her own funds and show
the ownership by the beneficiary/recipient unless he or she is the spouse or natural or adoptive parent or
stepparent and lives in the same household with the beneficiary/recipient or is a State or local
government agency for whom SSA has granted an exception to this requirement. Also, see SSA, POMS,
GN 00603.020. B.
7
    Id.
Page 5 - Laurie Watkins


Individual Bank Accounts Did Not Meet SSA Requirements

The representative payee did not properly title individual bank accounts for four of the
nine beneficiaries who had bank accounts. The four accounts that were not properly
titled were established for the Chestnut Manor I facility. While the accounts included the
organization’s and beneficiaries’ names, they did not show the organization was the
representative payee. SSA policy indicates that accounts are to be properly titled with
the names of the beneficiary and the representative payee.8 In addition, the title should
clearly show that the payee holds the funds in trust for the beneficiary and has only a
fiduciary interest in the account.9 The proper titling of accounts allows protection with
Federal Deposit Insurance Corporation-insured financial institutions and allows for
protection from the representative payee's creditors if needed.

Commingling of Benefit Payments

We found the representative payee commingled 18 beneficiaries’ payments with his
operating account. Federal regulations indicate that a representative payee has a
responsibility to keep any benefits received on behalf of beneficiaries separate from his
or her own funds.10 According to the representative payee, he received the
beneficiaries’ payments by paper check, cashed the checks at a local check-cashing
facility, and deposited the funds in the organization’s operating account. The
representative payee did not maintain check registers or copies of the canceled checks
to account for about $170,000 (54 percent) of the $313,000 in payments received for
the 18 beneficiaries. SSA’s Guide for Representative Payees11 encourages payees to
have benefit payments direct-deposited into a bank account. Direct deposit is a more
secure way of receiving payments, protects beneficiaries from loss and theft, and
improves recordkeeping.

REPORTING CHANGES IN BENEFICIARY CIRCUMSTANCES

Our review found that the representative payee did not promptly report changes in
beneficiary circumstances to SSA. Specifically, we found the representative payee did
not notify SSA that a beneficiary in his care had been missing. SSA policy requires that
a representative payee promptly report to SSA any changes that may affect the
individual’s entitlement or payment amount.12



8
     SSA, POMS, GN 00603.010. B.1.
9
    SSA, POMS, GN 00603.010. A.
10
     20 C.F.R. §§ 404.2035(b) and 416.635(b).
11
     Social Security, A Guide For Representative Payees, January 2009, page 13.
12
     20 C.F.R. §§ 404.2035(d) and 416.635(d).
Page 6 - Laurie Watkins


While conducting our previous audit, we learned that one of the beneficiaries in the
payee’s care had been missing since early September 2008. During two visits in
September 2008, the representative payee informed us that he did not know the
beneficiary’s whereabouts and failed to report this event to SSA. We informed SSA on
September 24, 2008 that the beneficiary had been missing. SSA paid the October 2008
benefits to the representative payee but suspended the payments from November 2008
to February 2009 when the beneficiary was found living in another State. In February
2009, the Agency assigned a new representative payee who received the suspended
benefit payments for the 4-month period. Because we immediately reported this event
to SSA, it avoided the representative payee receiving an overpayment for this
beneficiary from November 2008 to February 2009.

UNREPRESENTED BENEFICIARIES

The representative payee received payments totaling about $33,000 for three
beneficiaries for whom he was not the representative payee of record. These
arrangements appear to be a landlord/tenant arrangement, which may constitute an
assignment-like situation that is prohibited by SSA policy.13

Direct Deposit of Checks

We found that about $32,000 in Social Security payments was direct deposited into the
representative payee’s operating account for the Quality Assisted Living facility for two
beneficiaries who were not assigned a representative payee. One beneficiary, who was
receiving OASDI and SSI benefits, resided at the Quality Assisted Living facility. The
other beneficiary, who was receiving SSI disability payments, resided in another
property owned by the representative payee. Thus, these arrangements appear to be a
landlord/tenant arrangement, which may constitute an assignment-like situation and is
prohibited by SSA policy. Since the payee is receiving their benefit payments, SSA
should determine whether the two beneficiaries can manage or direct the management
of their finances and if not, assign an appropriate representative payee.

Endorsement of Beneficiary’s Check

The representative payee also received payments totaling about $1,000 for another
beneficiary who lived at the Quality Assisted Living facility from August through October
2008. It should be noted that SSA’ s records did not indicate that the beneficiary had
been assigned a representative payee. We found that the representative payee
endorsed and cashed benefit checks for the beneficiary, who was receiving both OASDI
and SSI benefits for disability. The representative payee stated that he cashed the
checks at the beneficiary’s request because the beneficiary did not have any

13
    The Social Security Act provides, in part, that the right of any person to any future payment under this
title shall not be transferable or assignable. The Social Security Act § 207(a), 42 U.S.C. § 407(a). SSA
policy states, “Any arrangement in which the claimant shares control of the funds from his or her benefit
with a person or entity that has an interest in charging or collecting money from the claimant is an
assignment-like situation that violates SSA’s policy.” SSA, POMS, GN 02410.001. D.2.
Page 7 - Laurie Watkins


identification. Further, he stated that, as of November 2008, the beneficiary no longer
lived at the Quality Assisted Living facility. However, our review of SSA’s records
showed that the payments continued to be mailed to the Quality Assisted Living facility
until May 2009. Further review indicated that these checks were endorsed by either the
beneficiary or the beneficiary and someone other than the representative payee. We
were not able to determine the relationship between the beneficiary and the other
person who had endorsed the checks.

SSA policy states that the beneficiary’s mailing address should be where he/she resides
or his/her own post office box (or the residence address or post office box of his/her
representative payee). 14 This policy also indicates that any other address is
questionable and will not be acceptable if it facilitates an assignment of benefits; or
directs checks to a location where the payee cannot readily negotiate them; or permits
the check payee to conceal information which, if known to SSA, would result in
nonpayment of benefits, substitution of payee, etc. In June 2009, SSA determined that
the beneficiary could not manage her finances and assigned a representative payee not
affiliated with the Quality Assisted Living facility to receive and manage her benefits.

OVERSIGHT OF REPRESENTATIVE PAYEE

We found SSA had limited oversight of the representative payee serving as both an
individual and organizational payee. The representative payee had three separate
entries (individual payee; organizational payee: Chestnut Manor; and Quality Assisted
Living) in SSA’s database used to track and monitor representative payees, and the
entries were not linked to provide SSA with a complete view of the payee. This
hindered the Agency’s ability to adequately monitor the representative payee’s
performance and protect beneficiaries from misuse.

Monitoring of Payee’s Performance

Our review determined that the representative payee served as an individual payee
for 12 years (since 1997) and served as an organizational payee for 10 years (since
1999). SSA was unaware the representative payee served in both capacities
simultaneously primarily because SSA’s Representative Payee System (RPS),15 which
is an integrated system used to maintain records of representative payees and their
assigned beneficiaries, was not designed to show if a representative payee was serving
in more than one capacity or operated more than one facility. The RPS had three
separate entries for the representative payee, and the entries were not linked to provide
SSA with a complete view of the payee.


14
     POMS, GN, 02605.005. A.
15
   The RPS processes payee applications, queries payee performance, processes mass change actions
(including change of address of organizational payees), documents misuse determinations, documents
any significant information about the payee, and documents reasons for payee appointment or non-
appointment.
Page 8 - Laurie Watkins


During Fiscal Years (FY) 2007 through 2009, SSA did not conduct any reviews of the
representative payee. We believed this occurred because the Agency was unaware of
the representative payee’s dual designation as a payee, and the payee served a small
number of beneficiaries under each designation (no more than 11 beneficiaries, as
shown in Table 1). In FY 2007, SSA began conducting random reviews of
organizational representative payees serving fewer than 50 beneficiaries and individual
payees serving fewer than 15 beneficiaries to verify how payees used benefits and to
help ensure they were carrying out their responsibilities. However, we found that for
FYs 2007 to 2009, the Philadelphia Region had conducted random reviews of
33 individual payees, and only 2 (6 percent) of these payees served fewer than
10 beneficiaries. On average, these individual payees served 12 beneficiaries, 3 more
than the representative payee served. Further, we found the Region had conducted
87 random reviews of organizational payees serving 50 or fewer beneficiaries, and none
of the organizational payees served fewer than 19 beneficiaries. On average, they
served 46 beneficiaries, 28 more than the representative payee served at both facilities.

By not monitoring representative payees that serve a small number of beneficiaries
under multiple designations, SSA is at risk that representative payees may not be
meeting their responsibilities and beneficiary payments may not be used in the best
interest of the beneficiary.

Transferring Payees Between Payee Designation

Because SSA was unaware that the payee served as both an individual payee and
organizational payee for two facilities, the payee was able to transfer beneficiaries
between the two different designations without SSA’s knowledge. We found the
representative payee had transferred two beneficiaries from his organization
designation for the Quality Assisted Living facility to his individual payee designation
even though the two beneficiaries continued to live at that facility. According to the
RPS, the organizational payee was terminated because a more suitable payee was
assigned, yet both beneficiaries remained under the care of the same payee. Without
the ability to link payee records, there is an increased risk that payees can transfer
beneficiaries between their facilities even when SSA has determined that they are no
longer suitable to perform payee responsibilities.

CONCLUSION AND RECOMMENDATIONS

The representative payee needs to improve safeguards over the receipt and
disbursement of Social Security benefits. Specifically, we found the representative
payee did not (1) maintain sufficient supporting documentation that would account for
the expenditure of beneficiaries’ funds; (2) title bank accounts in accordance with SSA’s
policy; or (3) establish direct deposit for all beneficiaries. We also found the
representative payee failed to report to SSA changes in a beneficiary’s circumstances
Page 9 - Laurie Watkins


that could affect the benefits. Finally, we found that SSA had limited oversight of the
representative payee serving in more than one capacity, which hindered the Agency’s
ability to adequately monitor the payee’s performance and protect beneficiaries from
misuse.

We recommend SSA:

1. Refrain from placing additional beneficiaries with this representative payee until the
   representative payee has implemented corrective actions to ensure Social Security
   benefits are properly used and accounted for. If these corrective actions are not
   implemented within 6 months, consider placing each of the representative payee’s
   beneficiaries with a new representative payee.

2. Instruct the representative payee to follow SSA’s requirements for the proper titling
   of bank accounts and keep accurate and complete records for each beneficiary.

3. Encourage the representative payee to have payments direct deposited into
   accounts for beneficiaries in his care who do not have bank accounts.

4. Instruct the representative payee to promptly notify SSA of any changes in a
   beneficiary’s circumstances.

5. Determine whether the two beneficiaries not assigned a representative payee can
   manage or direct the management of their finances and if not, assign a
   representative payee.

6. Update the RPS to consolidate the multiple entries for the representative payee at
   the Quality Assisted Living Facility and include all beneficiaries for whom this
   representative payee is assigned.

7. Conduct follow-up reviews of the representative payee to ensure the payee is
   complying with SSA’s requirements.

AGENCY AND REPRESENTATIVE PAYEE COMMENTS

SSA agreed with our recommendations, and Quality Assisted Care, Inc. has indicated it
has taken certain corrective actions. See Appendix D for the full text of SSA’s
comments and Appendix E for the full text of comments from Quality Assisted Care, Inc.
.



                                             S
                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Representative Payee Responsibilities

APPENDIX C – Scope and Methodology

APPENDIX D – Agency Comments

APPENDIX E – Representative Payee Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                   Appendix A

Acronyms
FY                   Fiscal Year
National Academies   National Research Council of the National Academies
OASDI                Old-Age, Survivors and Disability Insurance
OIG                  Office of the Inspector General
POMS                 Program Operations Manual System
RPS                  Representative Payee System
SSA                  Social Security Administration
SSI                  Supplemental Security Income
                                                                        Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using benefits to serve the beneficiary’s best
interest. The responsibilities include: 1
        Determining the beneficiary’s current needs for day-to-day living and use his or
         her payments to meet those needs.

        Conserving and investing benefits not needed to meet the beneficiary’s current
         needs.

        Maintaining accounting records of how the benefits are received and used.

        Reporting events to the Social Security Administration (SSA) that may affect the
         individual’s entitlement or benefit payment amount.

        Reporting any changes in circumstances that would affect their performance as a
         representative payee.

        Providing SSA an annual Representative Payee Accounting Report to account
         for benefits spent and invested.

        Returning any payments to SSA for which the beneficiary is not entitled.

        Returning conserved funds to SSA when no longer serving as the representative
         payee for the beneficiary.

        Being aware of any other income Supplemental Security Income recipients may
         have, and monitoring their conserved funds to ensure they do not exceed
         resource limits.




1
    20 C.F.R. § 404, subpart U, and § 416, subpart F.
                                                                      Appendix C

Scope and Methodology
In conducting this review, we:

   Reviewed applicable laws, regulations, and Social Security Administration (SSA)
    policies and procedures pertaining to representative payees.

   Reviewed prior work performed by the Office of the Inspector General and SSA in
    the representative payee area.

   Contacted the SSA Philadelphia Regional Office and Philadelphia field office staffs
    to obtain background information and prior audits regarding the individual
    representative payee.

   Reviewed the 27 beneficiaries (active and terminated) in the representative payee’s
    care for the period January 1, 2007 to September 30, 2008 and performed the
    following tests.

        Compared and reconciled a list of Social Security beneficiaries in the
         representative payee’s care from the payee to a list obtained from SSA’s
         Representative Payee System.

        Reviewed the most current Representative Payee Accounting Reports for
         assigned beneficiaries to determine whether the representative payee
         properly reported to SSA how benefits were used.

        Reviewed the representative payee’s internal controls over the receipt and
         disbursement of Social Security benefits.

        Reviewed the payee’s accounting records to determine whether benefits were
         properly spent or conserved on the individual’s behalf.

        Observed the living conditions and interviewed nine beneficiaries to determine
         whether their basic needs were being met.

        Reviewed the representative payee’s policies and procedures for the
         protection of personally identifiable information.




                                           C-1
We performed our fieldwork in Philadelphia, Pennsylvania, between
November 2008 and May 2009. We found the data used for this audit were sufficiently
reliable to meet our audit objectives. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




                                           C-2
                                                                      Appendix D

Agency Comments


Thursday, August 27, 2009

Subject: Comments on Draft Report (22009007) re: Org. Payee Serving as Individual
Payee in Phila., PA

Thank you for the opportunity to comment on this draft report. We agree with the
recommendations being made and will take appropriate action upon release of the final
report. We will need the names and SSNs of the beneficiaries to whom
Recommendations 3, 4, and 5 relate in order to take the corrective action needed.

We understand that you have shared parts of the draft report with Austin Virgo, the
payee, and are awaiting comments from him as well. We look forward to hearing what
he has to say.

If you have any questions, feel free to contact Jim Siegel, of the Center for Program
Support, at (215) 597-1364.


Laurie Watkins
Regional Commissioner
Philadelphia Region
                                Appendix E

Representative Payee Comments
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Cylinda McCloud-Keal, Director, Philadelphia Audit Division

   Carol Madonna, Audit Manager

Acknowledgments

In addition to those named above:

   Walter Mingo, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-03-09-29094.
                            DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                     Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of
Investigations (OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations
(OER), and Office of Technology and Resource Management (OTRM). To ensure compliance with
policies and procedures, internal controls, and professional standards, the OIG also has a comprehensive
Professional Responsibility and Quality Assurance program.
                                            Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs
and operations and makes recommendations to ensure program objectives are achieved effectively and
efficiently. Financial audits assess whether SSA’s financial statements fairly present SSA’s financial
position, results of operations, and cash flow. Performance audits review the economy, efficiency, and
effectiveness of SSA’s programs and operations. OA also conducts short-term management reviews and
program evaluations on issues of concern to SSA, Congress, and the general public.
                                       Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and
operations. This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA
employees performing their official duties. This office serves as liaison to the Department of Justice on
all matters relating to the investigation of SSA programs and personnel. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.
                        Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative
material. Also, OCIG administers the Civil Monetary Penalty program.
                                    Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news
releases and in providing information to the various news reporting services. OER develops OIG’s media
and public information policies, directs OIG’s external and public affairs programs, and serves as the
primary contact for those seeking information about OIG. OER prepares OIG publications, speeches, and
presentations to internal and external organizations, and responds to Congressional correspondence.
                       Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also
coordinates OIG’s budget, procurement, telecommunications, facilities, and human resources. In
addition, OTRM is the focal point for OIG’s strategic planning function, and the development and
monitoring of performance measures. In addition, OTRM receives and assigns for action allegations of
criminal and administrative violations of Social Security laws, identifies fugitives receiving benefit
payments from SSA, and provides technological assistance to investigations.
